APPENDIX TABLE OF CONTENTS
Memorandum Opinion of the Ninth Circuit
(March 21, 2019) ................................................. 1a
Order of the District Court of Nevada
(February 7, 2018) .............................................. 4a
Verdict Form
(September 22, 2017)........................................ 17a
Order of the Ninth Circuit Denying Petition for
Rehearing En Banc (April 25, 2019) ................ 19a
Relevant Constitutional and
Statutory Provisions......................................... 20a
Defendant Delmar Hardy’s Proposed Jury
Instruction (September 17, 2017) .................... 26a
District Court’s Ruling on Jury Instructions—
Relevant Excerpt (September 20, 2017) .......... 31a
Transcript of Instructions to the Jury—
Relevant Excerpts (September 21, 2017) ........ 43a

App.1a
MEMORANDUM OPINION
OF THE NINTH CIRCUIT
(MARCH 21, 2019)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________________
UNITED STATES OF AMERICA,

Plaintiff-Appellee,
v.
DEL HARDY, Esquire, AKA Delmar L. Hardy,

Defendant-Appellant.

________________________
No. 18-10174

D.C. No. 3:16-cr-00006-MMD-VPC-1
Appeal from the United States District Court
for the District of Nevada
Miranda M. Du, District Judge, Presiding
Before: M. SMITH, WATFORD, and
HURWITZ, Circuit Judges.
Delmar Hardy was convicted under 26 U.S.C.
§ 7206(1) of three counts of willfully filing false tax
returns. We have jurisdiction of this appeal under 28
U.S.C. § 1291 and affirm.
 This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.

App.2a
1. “Good faith reliance on a qualified accountant
has long been a defense to willfulness in cases of tax
fraud and evasion.” United States v. Bishop, 291
F.3d 1100, 1106 (9th Cir. 2002). We have made clear,
however, that if “the trial court adequately instructs
on specific intent, the failure to give an additional
instruction on good faith reliance upon expert advice
is not reversible error.” United States v. Dorotich,
900 F.2d 192, 194 (9th Cir. 1990) (internal quotation
marks and citation omitted). The district court adequately instructed the jury on specific intent, telling
it that the government was required to prove both
specific intent and that Hardy did not have a good
faith belief that he was complying with the law. The
district court therefore did not abuse its discretion by
declining to give Hardy’s requested instruction about
reliance on the advice of an accountant.
2. The district court did not abuse its discretion
in giving a deliberate ignorance instruction. See United
States v. Jewell, 532 F.2d 697, 700 (9th Cir. 1976)
(en banc). The instruction was appropriate in light of
evidence that Hardy instructed his office manager to
account for cash receipts in a different manner than
other payments and did not direct her to send cash
receipt records to his accountant. Moreover, although
Hardy claimed not to pay attention to his tax returns,
his accountant testified that he closely monitored his
return’s description of a closely held corporation.
3. The court did not abuse its discretion in admitting evidence of Hardy’s expenditures and claimed
income during the tax years at issue as evidence of
his awareness of underreporting of income. See United
States v. Marabelles, 724 F.2d 1374, 1379 (9th Cir.
1984) (“Although direct proof of a taxpayer’s intent to

App.3a
evade taxes is rarely available, willfulness may be
inferred by the trier of fact from all the facts and
circumstances of the attempted understatement of
tax.”).
4. The district court also did not abuse its discretion in excluding expert evidence that accurate
tax returns would still have resulted in relatively low
liability for Hardy. An absence of tax liability is not a
defense to false reporting. See United States v. Marashi,
913 F.2d 724, 736 (9th Cir. 1990) (“A violation of 26
U.S.C. § 7206(1) is complete when a taxpayer files a
return which he does not believe to be true and correct
as to every material matter.”) (internal quotation
marks omitted).
5. The district court did not abuse its discretion
in denying a new trial after its post-verdict dismissal,
at the government’s request, of Hardy’s conviction for
one count of corruptly endeavoring to obstruct the due
administration of the internal revenue laws, in violation of 26 U.S.C. § 7212(a). The court appropriately
rejected Hardy’s argument that “spillover” evidence
from the dismissed count tainted the convictions on
the false tax return counts. See United States v.
Lazarenko, 564 F.3d 1026, 1043-44 (9th Cir. 2009)
(listing relevant factors). The court’s instructions—a
“critical factor,” id. at 1043—delineated the different
elements of each charged offense. And, the jury,
although returning guilty verdicts on four of the
counts in the indictment, acquitted on the remaining
count. “The fact that the jury rendered selective
verdicts is highly indicative of its ability to compartmentalize the evidence.” United States v. Cuozzo,
962 F.2d 945, 950 (9th Cir. 1992).
AFFIRMED.

App.4a
ORDER OF THE
DISTRICT COURT OF NEVADA
(FEBRUARY 7, 2018)
UNITED STATES DISTRICT COURT
DISTRICT OF NEVADA
________________________
UNITED STATES OF AMERICA,

Plaintiff,
v.
DELMAR L. HARDY,

Defendant.

________________________

Case No. 3:16-cr-00006-MMD-VPC
Before: Miranda M. DU, United States District Judge
I.

Summary

After a trial lasting about two weeks, the jury
returned a verdict of guilt against Defendant Delmar
L. Hardy (“Hardy”) on four of the five counts charged
in the Indictment—three counts of false tax returns
and one count of corruptly obstructing or impeding
due administration of the Internal Revenue laws. (ECF
No. 176.) Hardy has filed two post-trial motions: (1)
a renewed motion for judgment of acquittal (ECF
No. 183); and (2) a motion for a new trial (ECF No.
184). After substitution of counsel, Hardy moved to
supplement these two motions. (ECF Nos. 197, 198).

App.5a
The Court has reviewed the briefs relating to these
motions. (ECF Nos. 183, 184, 185, 186, 187, 188, 197,
198, 206, 207, 208, 209.) For the reasons discussed
herein, Hardy’s motions are denied.
II.

Relevant Background

The Indictment charged conduct relating to two
separate factual situations. The first situation involved
a limited liability company, XYZ Real Estate, LLC
(“XYZ”), formed in approximately July 2009. Hardy
and Antonio Servidio were members with equal
membership interests in XYZ and established XYZ to
acquire real properties. Count Five of the Indictment
alleges that, between approximately December 2010
and November 2011, Hardy “did corruptly endeavor to
obstruct and impede the due administration of the
Internal Revenue laws by concealing A.S.’s contributions to, and taxable interests in, XYZ” and by
“executing United States Income Tax Return, Form
1040, for each of tax years 2009 and 2010, showing
on Schedule E the rental income and expenses incurred
by XYZ as that of Hardy [sic] for each of those tax
years.” (ECF No. 1 at 8.)
The second situation involved Hardy’s tax returns
for three tax years. Counts Two through Four of the
Indictment allege that Hardy made and subscribed
false individual tax returns for tax years 2008, 2009
and 2010 in violation of 26 U.S.C. § 7206(1). (Id. at 48.) The Indictment further identifies the specific
items that Hardy knew to be false. For example,
Count Two alleges that Hardy’s individual income
tax return, specifically Form 1040, for the 2008 tax
year identified Hardy’s business income and adjusted
gross income as a loss when he knew his business

App.6a
income was substantially greater and his adjusted
gross income was substantially greater than a loss.
(ECF No. 1 at 5.) Counts Three and Four relate to the
2009 and 2010 tax years and include additional
allegations relating to Hardy’s taxable income, total
tax, and the rental income and expenses incurred by
XYZ. (Id. at 5-6.)
III. Renewed Motion for Judgment of Acquittal
A. Legal Standard
The test for denial of a judgment of acquittal
pursuant to Federal Rule of Criminal Procedure 29
is the same as the test for reviewing a claim that
the evidence is insufficient to support a conviction.
See, e.g., United States v. Tucker, 641 F.3d 1110,
1118-19 (9th Cir. 2011); United States v. Abner, 35
F.3d 251, 253 (6th Cir. 1994). A criminal defendant’s
challenge to the constitutional sufficiency of evidence
to support a criminal conviction is governed by Jackson
v. Virginia, 443 U.S. 307, 319 (1979). Jackson requires
a court, upon such a motion, to construe the evidence
“in the light most favorable to the prosecution” to
determine whether “any rational trier of fact could
have found the essential elements of the crime beyond
a reasonable doubt.” Id. (emphasis in original).
B. Counts Two Through Four
Hardy contends that there was insufficient evidence to support the jury’s verdict on Counts Two
through Four because the government did not offer
evidence to support the offenses charged and instead
relied on a new offense not charged in the Indictment.
(ECF No. 183 at 3-4.) Hardy insists that because the

App.7a
Indictment identifies specific line items on his individual tax returns, and the government’s witness testified
as to false gross receipts on Schedule C, the government effectively attempted to amend the Indictment.
The government responds that the Indictment provides
sufficient notice of the offenses. (ECF No. 185 at 4-5.)
The Court agrees with the government.
The government is not required to state its theory
of the case or allege supporting evidence in an indictment; rather, the government need only allege the
“essential facts necessary to apprise a defendant of
the crime charged.” United States v. Buckley, 689
F.2d 893, 897 (9th Cir. 1982) (quoting United States
v. Markee, 425 F.2d 1043, 1047-48 (9th Cir. 1970),
cert. denied, 400 U.S. 847 (1970)).
For Counts Two through Four, the Indictment
alleges that Hardy made and subscribed individual
tax returns for tax years 2008, 2009 and 2010 in
which “Hardy did not believe to be true and correct as
to every material matter” in violation of 26 U.S.C.
§ 7206(1). (ECF No. 1 at 4-8.) These allegations provide
sufficient notice as to the information that Hardy did
not believe to be true but that was material to each
tax return, particularly since Hardy filed amended
tax returns in 2012 to correct the omission of substantial amounts of cash receipts from his 2009 and
2010 tax years. While the Indictment did not indicate
that the gross receipt line items were false, the
false information as to the gross receipts affected the
information on the line items enumerated in the Indictment. Thus, the Court concludes that the Indictment
sufficiently informs Hardy of the nature of the offenses
charged in Counts Two through Four.

App.8a
Construing the evidence in the light most favorable to the prosecution, the government offered
sufficient evidence such that a rational juror could
find the essential elements of the offenses charged
beyond a reasonable doubt. Among the elements that
the government must establish to support Counts
Two through Four is that when Hardy filed an
individual tax return for three tax years—2008, 2009
and 2010—he knew the returns contained false information as to a material matter. 26 U.S.C. § 7206(1).
The government offered evidence to show that the
false information relating to gross income was
material and Hardy had knowledge that the returns
contained such false, material information. First,
there was ample evidence throughout the testimony
of Brent Muhlenberg that the 2009 and 2010 returns
were amended because of gross errors resulting from
the omission of cash receipts and the same omission
of cash receipts was made in connection with the
2008 returns.1 Second, John Saccamano, an agent
for the Internal Revenue Service, testified that the
changes in gross income as a result of the omission
of the cash receipts for the three tax years at issue
would have a material impact on the IRS’s calculation of Hardy’s income. Finally, Patricia Mack
testified that on a couple of occasions where she and
Hardy would discuss the profit and loss statements,
Hardy commented about how he made more money
than all the attorneys combined. She testified that, in
response, she pointed out to Hardy that the attorneys
1 Muhlenberg testified that the 2008 returns were not amended
because he erroneously assumed the statute of limitations had
expired, and because the 2009 and 2010 returns were amended
to reflect the changes with respect to XYZ.

App.9a
made more if they had counted the cash received.
This evidence is sufficient for a rational juror to find
that Hardy had knowledge that his returns for the
three tax years at issue did not include the cash
income of his law firm.
Hardy further argues that the Court’s decision
to exclude evidence of tax liability prejudiced him
because the government was allowed to present
evidence of income and total tax without Hardy being
permitted to point out that the resulting tax liability
was minimal and therefore immaterial.2 However, the
Ninth Circuit has instructed that “whether there was
an actual tax deficiency is irrelevant because the
statute [section 7206(1)] is a perjury statute.”3 United
States v. Scholl, 166 F.3d 964, 980 (9th Cir. 1999). In
excluding evidence of tax liability, the Court had also
agreed with the government that because actual tax
liability is not relevant, permitting Hardy to offer
evidence that the resulting tax liability was trivial
would pose Fed. R. Evid. 403 concerns.
C. Count Five
Hardy construes Count Five as alleging that “it
was improper to attribute all of the rental income
2 The government correctly points out, the Court permitted
Hardy to offer evidence to compare total gross receipts to cash
receipts as well as evidence regarding the deductions and expenses
omitted from the returns to show other errors that Muhlenberg
had made. (ECF No. 185 at 6.)
3 Hardy relies on United States v. Uchimura, 125 F.3d 1282, 1285
(9th Cir. 1997) to argue that “the lack of tax deficiency is relevant
to a jury’s determination of materiality.” (ECF No. 183 at 5.)
However, Uchimura involves whether the materiality is an element
of a section 7206 offense and should be submitted to the jury.

App.10a
and expenses XYZ incurred to [ ] Hardy.” (ECF No. 183
at 6.) Based on this construction, Hardy insists that
there was no evidence that he was aware of the
requirements relating to reporting of partnership
interests or income and had relied on Muhlenberg to
prepare his returns to reflect his interest in XYZ. (Id.
at 7-8.) Hardy also contends that the government
improperly expanded the charge in the Indictment to
allege that a partnership return, Form 1065, should
have been filed.
First and foremost, the Court agrees with the
government that the Indictment is sufficient to give
Hardy notice that the act of concealing Servidio’s
involvement—Servidio’s “contributions to, and taxable
interests in XYZ . . . by showing on Schedule E the
rental income and expenses incurred by XYZ as that
of Hardy”—was the act that “corruptly endeavor[ed]
to obstruct and impede the due administration of the
Internal Revenue laws.” (ECF No. 1 at 8.) Again, the
government is not required to include its theory or
set forth what evidence supports the offense charged
in the Indictment. See Buckley, 689 F.2d at 897.
Moreover, the government offered evidence that
Hardy and Servidio were equal owners of XYZ, but
Hardy claimed 100 percent of XYZ’s income and expenses on his own personal returns. Servidio testified
that Hardy knew Servidio wanted to keep his name out
of XYZ and Hardy told him the only way to protect
Servidio was to keep Servidio as a silent partner in
XYZ. Muhlenberg testified that Hardy told him to
make sure the capital account for XYZ reflected
Hardy and Servidio’s equal ownership (i.e., a 50-50
split). However, when Muhlenberg asked Hardy for
Servidio’s social security number to prepare the K-1

App.11a
form for XYZ, Hardy told Muhlenberg that Servidio
did not want to be listed. Saccamano testified that the
way Hardy’s returns were filed failed to disclose
Servidio’s ownership in XYZ to the IRS, who would
not know to look at XYZ in the event of an audit of
Servidio. Viewing this evidence in the light most
favorable to the prosecution, a rational juror could
find that Hardy endeavored to obstruct and impede
the due administration of the Internal Revenue laws.
A rational juror could have found that while Hardy
relied on Muhlenberg to complete the returns, Muhlenberg was following Hardy’s instruction not to
include Servidio’s interest in XYZ on the returns.
IV. Motion for a New Trial
A. Legal Standard
Pursuant to Federal Rule of Criminal Procedure
33(a), “[u]pon the defendant’s motion, the court may
vacate any judgment and grant a new trial if the
interest of justice so requires.” Although determining
whether to grant a motion for a new trial is left to
the district court’s discretion, “it should be granted
only in exceptional cases in which the evidence preponderates heavily against the verdict.” United States
v. Pimentel, 654 F.2d 538, 545 (9th Cir. 1981) (citation
and internal quotation marks omitted). Moreover, the
defendant bears the burden of persuasion. United
States v. Endicott, 869 F.2d 452, 454 (9th Cir. 1989).
Such an extraordinary remedy is appropriate, for example, when a court makes an erroneous ruling during
the trial and that, but for that erroneous ruling, the
outcome of the trial would have been more favorable
to the defendant. See United States v. Butler, 567 F.2d
885, 891 (9th Cir. 1978).

App.12a
B. Evidence of Net Worth
Hardy contends that the Court erroneously permitted the government to present a “net worth/
expenditures method” of establishing taxable income
without going through the procedure established in
Holland v. United States, 348 U.S. 121 (1954). (ECF No.
184 at 3.) The government responds that any evidence
offered relating to Hardy’s expenses and net worth
(i.e., Hardy’s income as claimed in his mortgage and
credit card applications) was relevant as to Hardy’s
knowledge that his tax returns for the three tax
years at issue showing zero taxable income were
false. (ECF No. 186 at 4.) The Court agrees with the
government. This evidence did not go to Hardy’s
taxable income and the government did not rely on
it to demonstrate his taxable income. Instead, the
government relied on other evidence—including
Hardy’s amended returns for the 2009 and 2010 tax
years, Muhlenberg’s testimony as to the omissions of
cash receipts on these returns and Saccamano’s testimony as to the cash income omitted on these returns—
to establish Hardy’s taxable income. Evidence of
Hardy’s expenses and claimed income was offered to
show Hardy’s knowledge that the income information
on his returns was false.
C. Reliance on Tax Professional Instruction
Hardy argues that the Court committed error in
refusing to give the reliance on tax professional
instruction as to Counts Two through Four based on
the Court’s finding that the evidence proffered at
trial did not support giving this instruction. (ECF
No. 184 at 5-7.) In particular, Hardy insists that the
evidence showed that he provided all information to

App.13a
Muhlenberg and reasonably relied on Muhlenberg to
determine what records were required to prepare
accurate returns. The Court disagrees and finds it
correctly declined to give this instruction.
In United States v. Bishop, 291 F.3d 1100, 1106
(9th Cir. 2002), the Ninth Circuit held that “a defendant claiming good faith reliance on the advice of a
tax professional must have made full disclosure of all
relevant information to that professional.” Here, the
Court found that the good faith reliance instruction
did not apply to Counts Two through Four because
there was no evidence that Muhlenberg had been given
full and accurate information about the cash income
for the relevant tax years. The Court offered as example that Muhlenberg was not given information
showing cash income received or the amount of cash
income received before the returns at issue were filed
because the cash income was not in Quickbooks and
Muhlenberg was not given the cash receipts before
the returns at issue were filed. Patricia Mack
testified that she was given a box of cash receipts
and was told to get them to Muhlenberg after election night on November 6, 2012. Moreover, there
were testimonies, including from Hardy and
Stephanie Rice, that Hardy found a box of cash
receipt books that were not provided to Muhlenberg,
and Hardy testified that this incident occurred in the
summer of 2012. Those testimonies alone show a lack
of full disclosure of information about the cash income
to Muhlenberg. The Court again concludes that the
evidence did not support giving the requested
instruction.

App.14a
V.

Motions to Supplement

Hardy seeks leave to supplement his renewed
motion for judgment of acquittal and motion for a new
trial to assert additional grounds relating to Count
Five based upon Marinello v. United States, (No. 161144). (ECF Nos. 197, 198.) The government opposes
Hardy’s motions. The Court agrees with the government.
There is no dispute that the motions to supplement were filed long after the deadline for filing posttrial motions—fourteen days—had expired. Fed. R.
Crim. P. 29(c)(1); Fed. R. Crim. P. 33(b)(2). Hardy has
not presented good cause to extend the deadline to
permit supplementations to raise arguments unrelated to the two post-trial motions that were timely
filed. While Hardy substituted new counsel in place of
Joseph Low,4 the government correctly points out that
Hardy’s other attorneys, Leah Wigren and Steven
Wilson, continue to represent Hardy. Ms. Wigren has
been extensively involved in filing pretrial motions
and post-trial motions. Based on the Court’s observations, Mr. Wilson attended the majority of the trial,
was involved in presenting arguments as to the jury
instructions, and appeared to consult with Mr. Low
throughout the trial. Moreover, the proposed supplementations are based on Marinello, but the Supreme
Court granted the petition for certiorari in Marinello
on June 27, 2017, over two months before the start of
trial. That Hardy’s team of attorneys and former
counsel may not have been aware of the Court granting
4 The jury returned a verdict on September 22, 2017. (ECF No.
176.) Hardy filed the motion to substitute counsel about two
months later on December 19, 2017. (ECF No. 191.)

App.15a
the petition in Marinello does not excuse Hardy’s
delay. Under these circumstances, the Court finds
that Hardy has not established good cause to reopen
the briefing on the post-trial motions.
Moreover, even setting aside the delay in bringing
the motions to supplement, the Court agrees with the
government that the proposed supplements do not
warrant reopening the briefing. Hardy’s arguments
are grounded on how the Supreme Court might rule in
Marinello, but the trial, including the jury instructions
given and the Court’s rulings, proceeded based on
binding Ninth Circuit case law existing at the time.
Hardy cites to no authority to support his request that
the Court should permit a defendant to raise arguments based on anticipated rulings in a case pending
before the Supreme Court after the jury returned a
verdict of guilt. Nor does Hardy offer any authority to
support that Marinello should be applied retroactively in the event the Supreme Court were to change
the essential elements of a section 71212(a) offense.
For these reasons, Hardy’s motions to supplement
(ECF No. 197, 198) are denied.

{ Continued on the next page }

App.16a
VI. Conclusion
The Court notes that the parties made several
arguments and cited to several cases not discussed
above. The Court has reviewed these arguments and
cases and determines that they do not warrant discussion as they do not affect the outcome of Hardy’s
motions.
It is therefore ordered that Hardy’s renewed
motion for judgment of acquittal (ECF No. 183),
motion for a new trial (ECF No. 184) and motions to
supplement (ECF Nos. 197, 198) are denied.
DATED THIS 7th day of February 2018.
/s/ Miranda M. Du
United States District Judge

App.17a
VERDICT FORM
(SEPTEMBER 22, 2017, 2018)
UNITED STATES DISTRICT COURT
DISTRICT OF NEVADA
________________________
UNITED STATES OF AMERICA,
v.

Plaintiff,

DELMAR L. HARDY,

Defendant.

________________________

Case No. 3:16-cr-00006-MMD-VPC
Before: Miranda M. DU, United States District Judge
We, the jury, empaneled in the above-captioned
case upon our oath do hereby state that we find the
following unanimous verdict:
COUNT 1
Our verdict as to Count One-Conspiracy to
Structure Financial Transactions is as follows:
Defendant Delmar Hardy

NOT GUILTY

COUNT 2
Our verdict as to Count Two-Making and Subscribing a False Tax Return for Tax Year 2008 is as
follows:
Defendant Delmar Hardy

GUILTY

App.18a

COUNT 3
Our verdict as to Count Three-Making and Subscribing a False Tax Return for Tax Year 2009 is as
follows:
Defendant Delmar Hardy

GUILTY

COUNT 4
Our verdict as to Count Four-Making and Subscribing a False Tax Return for Tax Year 2010 is as
follows:
Defendant Delmar Hardy

GUILTY

COUNT 5
Our verdict as to Count Five-Corruptly Obstructing or Impeding the Due Administration of the Internal
Revenue Laws is as follows:
Defendant Delmar Hardy

GUILTY
/s/ Foreman of the Jury

Dated: 9/22/2017

App.19a
ORDER OF THE NINTH CIRCUIT DENYING
PETITION FOR REHEARING EN BANC
(APRIL 25, 2019)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________________
UNITED STATES OF AMERICA,

Plaintiff-Appellee,
v.
DEL HARDY, Esquire, AKA Delmar L. Hardy,

Defendant-Appellant.

________________________
No. 18-10174

D.C. No. 3:16-cr-00006-MMD-VPC-1
District of Nevada, Reno
Before: M. SMITH, WATFORD, and
HURWITZ, Circuit Judges.
The panel has voted to deny the petition for panel
rehearing and rehearing en banc.
The full court has been advised of the petition
for rehearing en banc and no judge has requested a
vote on whether to rehear the matter en banc. Fed.
R. App. P. 35.
The petitions for rehearing and rehearing en banc,
Dkt. 37, are DENIED.

App.20a
RELEVANT CONSTITUTIONAL
AND STATUTORY PROVISIONS
U.S. Const. Art. III—The Judiciary
Section 1.
The judicial Power of the United States, shall be
vested in one supreme Court, and in such inferior
Courts as the Congress may from time to time
ordain and establish. The Judges, both of the
supreme and inferior Courts, shall hold their
Offices during good Behavior, and shall, at stated
Times, receive for their Services, a Compensation,
which shall not be diminished during their
Continuance in Office.
Section 2.
The judicial Power shall extend to all Cases, in
Law and Equity, arising under this Constitution,
the Laws of the United States, and Treaties
made, or which shall be made, under their Authority;—to all Cases affecting Ambassadors, other
public Ministers and Consuls;—to all Cases of
admiralty and maritime Jurisdiction;—to Controversies to which the United States shall be a
Party;—to Controversies between two or more
States;—between a State and Citizens of another
State;—between Citizens of different States,—
between Citizens of the same State claiming
Lands under Grants of different States, and
between a State, or the Citizens thereof, and
foreign States, Citizens or Subjects.1
1 This clause has been affected by the Eleventh Amendment.

App.21a
In all Cases affecting Ambassadors, other public
Ministers and Consuls, and those in which a State
shall be Party, the supreme Court shall have
original Jurisdiction. In all the other Cases before
mentioned, the supreme Court shall have appellate Jurisdiction, both as to Law and Fact, with
such Exceptions, and under such Regulations as
the Congress shall make.
The Trial of all Crimes, except in Cases of Impeachment, shall be by Jury; and such Trial shall be
held in the State where the said Crimes shall
have been committed; but when not committed
within any State, the Trial shall be at such
Place or Places as the Congress may by Law have
directed.
Section 3.
Treason against the United States, shall consist
only in levying War against them, or in adhering
to their Enemies, giving them Aid and Comfort.
No Person shall be convicted of Treason unless on
the Testimony of two Witnesses to the same
overt Act, or on Confession in open Court.
The Congress shall have Power to declare the
Punishment of Treason, but no Attainder of
Treason shall work Corruption of Blood, or Forfeiture except during the Life of the Person attainted.

App.22a
U.S. Const. amend. VI—
Jury Trials for Crimes, and Procedural Rights
In all criminal prosecutions, the accused shall
enjoy the right to a speedy and public trial, by an
impartial jury of the State and district wherein
the crime shall have been committed, which
district shall have been previously ascertained by
law, and to be informed of the nature and cause
of the accusation; to be confronted with the
witnesses against him; to have compulsory
process for obtaining witnesses in his favor, and
to have the Assistance of Counsel for his
defense.
26 U.S.C. § 7206, I.R.C. § 7206—
Fraud and False Statements
Any person who—
(1) Declaration under penalties of perjury.—
Willfully makes and subscribes any return, statement, or other document, which contains or is
verified by a written declaration that it is made
under the penalties of perjury, and which he does
not believe to be true and correct as to every
material matter; or
(2) Aid or assistance.—Willfully aids or assists
in, or procures, counsels, or advises the preparation or presentation under, or in connection
with any matter arising under, the internal
revenue laws, of a return, affidavit, claim, or
other document, which is fraudulent or is false as
to any material matter, whether or not such
falsity or fraud is with the knowledge or consent

App.23a
of the person authorized or required to present
such return, affidavit, claim, or document; or
(3) Fraudulent bonds, permits, and entries.—
Simulates or falsely or fraudulently executes or
signs any bond, permit, entry, or other document
required by the provisions of the internal revenue
laws, or by any regulation made in pursuance
thereof, or procures the same to be falsely or
fraudulently executed, or advises, aids in, or connives at such execution thereof; or
(4) Removal or concealment with intent to
defraud.—Removes, deposits, or conceals, or is
concerned in removing, depositing, or concealing,
any goods or commodities for or in respect whereof
any tax is or shall be imposed, or any property
upon which levy is authorized by section 6331,
with intent to evade or defeat the assessment or
collection of any tax imposed by this title; or
(5) Compromises and closing agreements.—In
connection with any compromise under section
7122, or offer of such compromise, or in connection
with any closing agreement under section 7121, or
offer to enter into any such agreement, willfully—
(A) Concealment of property.—Conceals from
any officer or employee of the United States
any property belonging to the estate of a
taxpayer or other person liable in respect of
the tax, or
(B) Withholding, falsifying, and destroying records.—Receives, withholds, destroys, mutilates, or falsifies any book, document, or
record, or makes any false statement, relating
to the estate or financial condition of the

App.24a
taxpayer or other person liable in respect of
the tax;
shall be guilty of a felony and, upon conviction
thereof, shall be fined not more than $100,000
($500,000 in the case of a corporation), or imprisoned not more than 3 years, or both, together with
the costs of prosecution.
26 U.S.C. § 7212, I.R.C. § 7212—
Attempts to Interfere with
Administration of Internal Revenue Laws
(a) Corrupt or forcible interference. —
Whoever corruptly or by force or threats of force
(including any threatening letter or communication) endeavors to intimidate or impede any officer
or employee of the United States acting in an
official capacity under this title, or in any other
way corruptly or by force or threats of force
(including any threatening letter or communication) obstructs or impedes, or endeavors to
obstruct or impede, the due administration of
this title, shall, upon conviction thereof, be fined
not more than $5,000, or imprisoned not more
than 3 years, or both, except that if the offense is
committed only by threats of force, the person
convicted thereof shall be fined not more than
$3,000, or imprisoned not more than 1 year, or
both. The term “threats of force”, as used in this
subsection, means threats of bodily harm to the
officer or employee of the United States or to a
member of his family.

App.25a
(b) Forcible rescue of seized property.—
Any person who forcibly rescues or causes to be
rescued any property after it shall have been
seized under this title, or shall attempt or
endeavor so to do, shall, excepting in cases
otherwise provided for, for every such offense, be
fined not more than $500, or not more than double
the value of the property so rescued, whichever
is the greater, or be imprisoned not more than 2
years.

App.26a
DEFENDANT DELMAR HARDY’S
PROPOSED JURY INSTRUCTION
(SEPTEMBER 17, 2017)
UNITED STATES DISTRICT COURT
DISTRICT OF NEVADA
________________________
UNITED STATES OF AMERICA,

Plaintiff,
v.
DELMAR HARDY,

Defendant.

________________________
3:16-cr-00006-MMD-VPC

Delmar Hardy, by and through counsel, proposes
the following jury instruction.
Counsel respectfully requests that the Court
include this instruction in its jury charge. Counsel
believes this instruction accurately reflects the case
law and other authority cited here, and is a true
statements of the law and facts. See Exhibit A, Memorandum in support of this instruction.

App.27a
The Proposed Jury Instruction is:
1. Reliance on Tax Professional
Dated this 17th day of September, 2017
By: /s/ Leah R. Wigren
Counsel for Del Hardy

App.28a
MR. HARDY’S PROPOSED JURY INSTRUCTION NO. 3:
Reliance on Tax Professional
In Counts Two through Four, the Government
must prove beyond a reasonable doubt that Mr. Hardy
filed false tax returns.
In Count Five, the Government must prove beyond
a reasonable doubt that Mr. Hardy knowingly tried
to instruct or impede the due administration of the
IRS laws.
Evidence that in good faith Mr. Hardy followed
the advice of his tax preparer is inconsistent with
such unlawful intent.
The Government has not proved intent if you find
that before acting, Mr. Hardy made full disclosure to
a tax professional of all relevant tax-related information of which he had knowledge, received the tax
professional’s advice as to a specific course of conduct
that he followed, and reasonably relied on that
advice in good faith.

AUTHORITY: Cheek v. United States, 498 U.S. 192,
201 (1991); United States v. Bishop, 291 F.3d 1100 (9th
Cir. 2002); United States v. Van Allen, 524 F.3d 814
(7th Cir. 2008).
5.9 Pattern Jury Instructions, Criminal Cases, Ninth
Circuit 2010; 6.12 Pattern Criminal Jury Instructions,
Seventh Circuit (2012).

App.29a
MEMORANDUM IN SUPPORT OF
PROPOSED JURY INSTRUCTION ON
RELIANCE OF TAX PROFESSIONAL
Counsel for Mr. Hardy relied on the following in
drafting the attached proposed jury instruction for
reliance on a tax professional:

United States v. Bishop, 291 F.3d 1100 (9th Cir.
2002). Good faith reliance on a qualified accountant
has long been a defense to willfulness in cases of tax
fraud and evasion. [A] defendant may rebut the
Government’s proof of willfulness by establishing
good faith reliance on a qualified accountant after
full disclosure of tax-related information.
Willfulness is an element in all criminal tax
cases. “Willfulness, as construed by our prior decisions
in criminal tax cases, requires the Government to
prove that the law imposed a duty on the defendant,
that the defendant knew of this duty, and that he
voluntarily and intentionally violated that duty.”
Cheek v. United States, 498 U.S. 192, 201 (1991).
“[C]arrying this burden requires negating a defendant’s claim of ignorance of the law or a claim that
because of a misunderstanding of the law, he had a
good-faith belief that he was not violating any of the
provisions of the tax law. This is so because one
cannot be aware that the law imposes a duty upon
him and yet be ignorant of it, misunderstand the
law, or believe that the duty does not exist.” Id. at
202. The Court almost 60 years ago interpreted the
statutory term “willfully” as used in the federal
criminal tax statutes as carving out an exception to
the traditional rule. [That ignorance of the law is no
defense]. This special treatment of criminal tax offenses

App.30a
is largely due to the complexity of the tax laws.
Cheek, 498 U.S. at 200.
In the end, the issue is whether, based on all the
evidence, the Government has proved that the defendant was aware of the duty at issue, which cannot be
true if the jury credits a good-faith misunderstanding
and belief submission, whether or not the claimed
belief or misunderstanding is objectively reasonable.
Cheek, 498 U.S. at 202.
“The rationale behind the subjective standard in

Cheek is to avoid criminalizing unwitting violations
of the complicated and extensive tax laws.” Bishop,

291 F.3d at 1106.

Counsel also read United States v. Van Allen, 524
F.3d 814, 823 (7th Cir. 2008). In that case, the Seventh
Circuit listed these factors for a reliance on professional advice jury instruction: A defendant, (1) before
taking action, (2) in good faith sought the advice of
an attorney whom he considered competent, (3) for
the purpose of securing advice on the lawfulness of
his possible future conduct, (4) and made a full and
accurate report to his attorney of all material facts
which the defendant knew, (5) and acted strictly in
accordance with the advice of his attorney who had
been given a full report.
By: Leah Wigren
Dated: September 17, 2017

App.31a
DISTRICT COURT’S RULING ON JURY
INSTRUCTIONS—RELEVANT EXCERPT
(SEPTEMBER 20, 2017)
UNITED STATES DISTRICT COURT
DISTRICT OF NEVADA
________________________
UNITED STATES OF AMERICA,

Plaintiff,
v.
DELMAR HARDY,

Defendant.

________________________

No. 3:16-cr-00006-MMD-VPC
Volume XI
Before: The Honorable Miranda M. DU,
District Judge

[September 20, 2017 Transcript, p.2855]
MR. WILSON: I think instead of true it should be false.
THE COURT: Yes. So it would be—the instruction will
now read: “You may find the defendant acted
knowingly if you find beyond a reasonable doubt
that the defendant was aware of a high probability that the income reported on his tax returns
for 2008, 2009, 2010 tax years were true—were
false, and deliberately avoided learning the

App.32a
truth. You may not find such knowledge, however,
if you find that the defendant actually believed
that his tax returns were correct.” That would
be—“believed that the income reported on his
tax returns were correct; or, if you find the
defendant was simply careless.” That would now
be the instruction.
All right. The last instruction is the good faith
reliance instruction. I made my ruling on Count
Five, finding that that instruction applies to
Count Five. As I explained, I think several days
ago, I find that the evidence supports my finding
that Mr. Hardy made full disclosure of all
materials of XYZ ownership relating to XYZ
ownership to Mr. Muhlenberg.
Mr. Low wanted to present evidence of full disclosure relating to the tax returns and the income
in the income tax returns to support giving the
instruction to Count Two to Four. Is there any
more that you wanted to add, other than what
you provided to me, I think it was last night, Mr.
Low?
MR. LOW: Besides what Mr. Hardy testified, yes, there
is. And that would be what Mr. Hardy has testified to.
THE COURT: All right. What’s the government’s
response to the argument that there’s been evidence of full disclosure?
MR. LANGSTON: Your Honor, I think the evidence
here is that there was access provided, but not
disclosure. You know, simply providing someone
with access to your computer system—you know,
if you can imagine that the cash receipt books—

App.33a
or that the cash receipt summaries that are in
evidence had been in a file somewhere on a computer, but you had not, in fact, directed Mr.
Muhlenberg to the file, I don’t think that that’s
full disclosure, although that would be full access.
And for those reasons, we don’t believe that there
is sufficient evidence that he disclosed all the
material facts.
Mr. Muhlenberg testified that he was unaware
of the cash receipt books. And I think the evidence
here suggests that there may have been theoretical access, but not disclosure.
THE COURT: Mr. Wilson.
MR. WILSON: I think that’s—
THE COURT: Or Mr. Low? Who wants to argue? You
both may chime in if you’d like.
MR. WILSON: Okay.
I think that’s a fine line, Your Honor. I mean,
what the law requires is full disclosure. Again,
Mr. Hardy disclosed, through his office, all
available financial documents, QuickBooks, Time
Slips. The cash receipt books would have been
available to Mr. Muhlenberg. Mr. Hardy—so
this word about “access,” I don’t read this—I
mean, the government is creating, I guess, it’s an
affirmative obligation that a taxpayer identify
and then somehow ensure that the return
preparer has received and reviewed everything.
And I don’t think that’s the standard. I think as
long as—full disclosure, to me, is if you have an
accountant like Mr. Muhlenberg, who is in the
office, I think, once every couple months, I think

App.34a
he has access. And, I think Patti Mack’s
testimony, what Mr. Low submitted last night in
the transcript, confirms that she tried to instruct
Mr. Muhlenberg on how to use Time Slips.
I don’t read the disclosure to mean that Mr.
Hardy has to sit down with his accountant and
go through, item by item, and make sure that Mr.
Muhlenberg has picked up or reviewed what was
available to him.
I mean, and I would go a little further. I think
giving the blind indifference instruction without
the reliance instruction is an error because I think
if the Court is somehow—
THE COURT: They go to a different issue though.
MR. WILSON: Not really. I mean, if the government
is arguing that he had blind indifference, and Mr.
Hardy’s defense is, well, maybe I, maybe I didn’t
know exactly what was on the return because I
relied on my accountant. I gave him full access.
So the cases I’ve read, there is—and I wish I had
it with me. I didn’t know it was going to be an
issue, but there are citations where courts have
held that giving the blind indifference instruction
in combination with a reliance instruction protects
the defense that Mr. Hardy, I believe has put on
sufficient evidence. I don’t think Mr. Hardy has
to prove beyond a reasonable doubt that there
was full disclosure. I think Mr. Hardy has to
present sufficient evidence that the Court could
find that Mr. Muhlenberg had everything he
knew, everything he believed he needed to
prepare a tax return. And if Mr. Muhlenberg
made a decision not to access something, I don’t

App.35a
know how you can hold Mr. Hardy accountable
for that.
MR. LOW: I have one addition, and it’s factual only, if I
may. You will recall that Mr. Muhlenberg did say
that he did come into the cash receipt records
somewhere in the April, May 2012 time frame,
through the summer. That’s important because
it goes to the amendments and when Mr.
Muhlenberg had all the information for sure. And
that is why the debate on the date as to when
some Excel spreadsheet was made is being fought
so aggressively.
So, you do have facts to support that Mr.
Muhlenberg not only had access, but he also had
them personally.
THE COURT: So if he had—but the issue isn’t whether
he had access after the original returns were
filed but before the amended returns were filed,
because Count Two and Four go to the initial
returns.
MR. LOW: Yes. And that’s why I relied upon the Patti
Mack information that I cited—I’m sorry—that I
drew to your attention in a rough, because Patti
Mack said that she believed that she gave them
to him and that he had them as well. That is
enough foundation right there, factually. And,
oh, by the way, it is uncontested because it’s the
government’s witness, who they put on and called,
and nobody had discredited that or suggested it
wasn’t true in any way.
THE COURT: So to be clear, if there is—I’m not
resolving factual disputes.

App.36a
MR. LOW: Right.
THE COURT: So if there’s any evidence, that’s what
I would rely on.
MR. LOW: And that point alone—sorry. I interrupted.
THE COURT: Anything else?
MR. LOW: No. I submit.
MR. LANGSTON: Yes, Your Honor. I believe the things
that are alluded to by Mr. Low, without citing
them, you know, it’s—and I can just go through
them line by line, but page 6, that’s offered to
teach him to use Time Slips.
Page 95, that was not admitted for the truth of
the matter asserted and it references 2012.
Page 50, I think it was, again, about access, she
told him about the cash receipt books, but did
not provide them.
Page 77 is what Mack believed that—Mack believed that Muhlenberg may have had them, but
she didn’t know that he did. And, again, I don’t
know that Mack’s belief as to this is relevant. It’s
whether the defendant provided full disclosure.
Page 103 talks about Time Slips.
And I think page 104 talks about the books were
given, again, in 2012.
The issue is they are certainly permitted to
argue under the willfully matter, that Mr. Hardy
believed his returns were correct because he
thought he had provided everything. But in order
to be able to rely on the accounting instruction,
in order to be entitled to it, he’s saying that I

App.37a
relied on my accountant’s advice. And you’re only
allowed to do that if you provided full disclosure
to your accountant of all the facts. And that
wasn’t done here.
MR. WILSON: If I may, Your Honor.
THE COURT: Yes.
MR. WILSON: This goes back, again, to the subjective
intent issue. I mean, if a taxpayer turns over
what he believes to be the complete and full disclosure—as in this case Mr. Hardy believed that
the cash was in the QuickBooks—this seems to be
a trap for a taxpayer to somehow—I mean, we’ve
heard testimony Mr. Hardy understood that the
cash was in the QuickBooks. So when he provided the QuickBooks, he believed that full disclosure had been provided. Unlike the Bishop
case, where the accountant in that case affirmatively notified the taxpayer, I don’t have all the
records necessary, in this case there was no question. And again, this—the disclosure is that Mr.
Hardy provided everything he believed was necessary—he’s not an accountant. If Mr. Muhlenberg
needed something else, or he thought there was
a discrepancy, had he asked Mr. Hardy that, and
Mr. Hardy had refused it, as the taxpayer did in
Bishop, then I would agree there’s not full disclosure. But, I don’t know how a taxpayer provides
what he believes has already been provided.
MR. LANGSTON: And Your Honor, if I may. The subjective intent standard was specifically rejected by
Bishop. And I think the issue here is—and
taking Mr. Wilson’s scenario—if a taxpayer provides a packet of information to an accountant

App.38a
and inadvertently omits some of the information,
the taxpayer able to argue that under willfulness.
But they can’t say my accountant told me I was
entitled to this deduction, if they didn’t provide
the information to their accountant necessary to
make that assessment.
Mr. Hardy may well—Mr. Hardy certainly is
arguing that he believed he provided all the information, but I actually think it is an undisputed
fact here that he did not, in fact, provide the
information.
THE COURT: All right. I want to address, first of all,
the fact that both sides alluded to in the rough
transcript that’s not an official record, and I did
review the rough transcript—and as I said, I also
relied on my notes and my memory—and none of
the sections cited show that Ms. Mack testified
that she gave—she actually gave the cash receipt
books to Mr. Muhlenberg before the original
returns were filed. And that’s also consistent
with my recollection of the testimony that came
in. But let me give you—so for the record, I did
review each of the citations that Mr. Low gave me.
In addition to that, I also looked at other portions
of the rough transcript, including on page 84, on
the September 11th morning, where there’s
testimony that Mrs. Mack thought Mr. Muhlenberg had the cash receipts books, but it turns out
he had not gotten them.
With respect to the good faith reliance instruction
for Counts Two to Four, I’m going to give you my
ruling. I find that the instruction does not apply.
In United States versus Bishop—this is 291 F.3d
1100. The PIN cite is 1106. It’s a Ninth Circuit,

App.39a
2002 decision. The Court explained that, and I
quote: “A defendant may rebut the government’s
proof of willfulness by establishing good faith
reliance on a qualified accountant after full disclosure of tax-related information,” end quote.
In that case, the government argued that if a
defendant did not make full disclosure to his tax
professional, then he probably did not act in
good faith. The Court addressed the boundaries
of this defense and held that, and I quote again:
“A defendant claiming good faith reliance on the
advice of a tax professional must have made full
disclosure of all relevant information to that
professional.”
The Seventh Circuit decision, United States versus
Allen—524 F.3d 814. It’s a Seventh Circuit, 2008
decision—that Mr. Wilson cited to previously,
provides for the same requirement; and that is, a
defendant—that is that the defendant made full
disclosure—a full and accurate report to the
attorney whose advice defendant claimed to
have relied on. In that case, the Seventh Circuit
affirmed the District Court’s decision not to give
the good faith reliance on advice of counsel
instruction because of a missing key item of
evidence, advice of counsel, because counsel
testified that she did not advise defendant to
omit assets or business from the bankruptcy
petition, and defendant did not show that such
advice was given.

I think these decisions support the requirement
of full disclosure to the tax professional, or any
professional, whether legal or an accountant
professional, whose advice a defendant relies on

App.40a
means actual disclosure, not constructive disclosure or theoretical disclosure. This is because one
cannot claim to act on advice of a professional
and on the advice given, if one only gives, I
quote, access to a computer that has all relevant
information, but do not actually disclose the
relevant information.
Now, to be sure, I agree with Mr. Wilson that
full disclosure requires evidence that—full disclosure does not require evidence that the professional actually reviewed the materials that were
disclosed. Disclosure talks about the obligation of
the defendant to disclose, not the tax professional’s obligation to review what was disclosed.
Mr. Wilson also argues that subjective belief of a
taxpayer as to what he provided to his tax
preparer is important. But, I agree with Mr.
Langston that intent goes to willfulness. It does
not entitle an instruction of good faith reliance
on the tax professional.
And in this case, Mr. Muhlenberg was not given
information showing cash income received or the
amount of cash income received before the returns
at issue were filed because the cash income was
not in QuickBooks and he was not given the cash
receipt books before the returns were filed.
Ms. Mack testified that she was given a box of
cash receipts and was told to get them to Mr.
Muhlenberg after Election Night on November
6th, 2012. There was testimony, including from
Mr. Hardy and Ms. Rice, that Mr. Hardy found a
box of cash receipt books that were not provided
to Mr. Muhlenberg. And Mr. Hardy himself

App.41a
testified that that occurred in the spring or
summer of 2012, after the original returns were
filed.
These testimonies, alone, show a lack of full
disclosure to Mr. Muhlenberg. Whether intentional or inadvertent, it doesn’t matter. There
was testimony that Mr. Muhlenberg had access
to all financial documents. The fact that Mr.
Muhlenberg was offered access to Time Slips,
which contained tax income information, and all
information on Ms. Mack’s computer, via remote
access, does not meet the full disclosure requirements for the good faith reliance instruction
either, because I cannot find that the advice Mr.
Hardy relies upon was based on full disclosure of
information.
Mr. Hardy cannot claim that his failure to include
cash income on his returns are based on Mr.
Muhlenberg’s advice not to claim them on his
returns, when there’s no evidence that the cash
income was disclosed to Mr. Muhlenberg, or that
the cash receipt books were disclosed to Mr.
Muhlenberg before the returns were filed.
Mr. Hardy testified, I think yesterday, that Mr.
Muhlenberg must have the cash receipt books in
2009 because Mr. Muhlenberg did the financials
in connection with Mr. Hardy’s divorce. But, that
testimony is no different than saying that Mr.
Muhlenberg must have the cash receipt books
because he prepared the tax returns. It’s not
evidence that the cash receipt books were fully
disclosed to Mr. Muhlenberg.

App.42a
I agree it’s not Mr. Hardy’s burden to show that
he acted in good faith or that he did not act
willfully. It’s the government’s burden. I find
that the good faith reliance instruction, however,
based on the evidence in this case, does not apply
to Counts Two through Four because there’s no
evidence that Mr. Muhlenberg was given full and
accurate information about the cash and income
for the relevant period of 2008 through 2010.
And on that basis, I deny the request to give the
good faith reliance instructions for Counts Two
through Four, but it will be given for Count Five.
[...]

App.43a
TRANSCRIPT OF INSTRUCTIONS TO THE
JURY—RELEVANT EXCERPTS
(SEPTEMBER 21, 2017)
UNITED STATES DISTRICT COURT
DISTRICT OF NEVADA
________________________
UNITED STATES OF AMERICA,

Plaintiff,
v.
DELMAR HARDY,

Defendant.

________________________

No. 3:16-cr-00006-MMD-VPC
Volume XII
Before: The Honorable Miranda M. DU,
District Judge

[September 21, 2017 Transcript, p. 2963]
. . . deposit, withdraw, or otherwise participate in
transferring a total of more than $10,000 in cash
or currency, using a financial institution or
bank, by intentionally setting up or arranging a
series of separate transactions, each one involving
less than 10,000 in order to evade the currency
reporting requirement that would have applied
if fewer transactions had been made.

App.44a
If you find from your consideration of all the
evidence that the government has failed to prove
any of these elements beyond a reasonable doubt
as to the charge of structuring, then you should
find the defendant not guilty of that charge.
The defendant is charged in Counts Two through
Four of the Indictment with filing a false tax
return in violation of Section 7206(1) of Title 26
of the United States Code.
In order for the defendant to be found guilty of
that charge, the government must prove each of
the following elements beyond a reasonable doubt:
First, the defendant signed and filed a tax return
for the year 2008 with respect to Count Two; Year
2009 with respect to Count Three; and year 2010
with respect to Count Four, that he knew contained
false information as to a material matter;
Second, the return contained a written declaration
that it was signed subject to the penalties of
perjury; and
Third, in filing the false tax returns, the defendant
acted willfully.
A matter is material if it had a natural tendency
to influence or was capable of influencing the
decision or activities of the Internal Revenue
Service.
In order to prove that the defendant acted willfully, the government must prove beyond a
reasonable doubt that the defendant knew federal
tax imposed a duty on him, and that the defendant
intentionally and voluntarily violated that duty.

App.45a
A defendant who acts on a good faith misunderstanding as to the requirements of the law does
not act willfully, even if his understanding of the
law is wrong or unreasonable. Nevertheless,
merely disagreeing with the law does not constitute a good faith misunderstanding of the law
because all persons have a duty to obey the law
whether or not they agree with it. Thus, in order
to prove the defendant acted willfully, the
government must prove beyond a reasonable
doubt the defendant did not have a good faith
belief that he was complying the law.
An act is done knowingly if the defendant is aware
of the act and does not act through ignorance,
mistake, or accident. You may consider evidence
of the defendant’s words, acts, or omissions,
along with all the other evidence in deciding the
defendant acted knowingly.
You may find that the defendant acted knowingly
if you find, beyond a reasonable doubt, that the
defendant was aware of a high probability that
the income reported on his tax returns for 2008,
2009, and 2010 tax years was false, and deliberately avoided learning the truth. You may not
find such knowledge, however, if you find that the
defendant actually believed the income reported
on his tax returns were correct, and if you find
that the defendant was simply careless.
The defendant is charged in Count Five of the
Indictment with corruptly endeavoring to impede
the due administration of the Internal Revenue
laws, in violation of Section 7212(a) of Title 26 of
the United States Code.

App.46a
In order for you to find the defendant guilty of
this charge, the government must prove each of
the following elements beyond a reasonable doubt:
First, the defendant knowingly tried to obstruct
or impede the due administration of the Internal
Revenue laws; and
Second, the defendant did so corruptly.
Corruptly means to act knowingly and dishonestly,
with the specific intent to obtain an unlawful
advantage or benefit for oneself or for another.
To obstruct or impede means to engage in some
act or take some step to hinder, delay, or prevent
the proper administration of the Internal Revenue
laws.
Due administration of the Internal Revenue laws
includes the Internal Revenue Service carrying
out its lawful functions, including to ascertain
income, compute, assess and collect income taxes,
audit tax returns and records, and investigate
possible criminal violations of the Internal Revenue laws.
The government does not have to prove that the
administration of the Internal Revenue laws was
actually obstructed or impeded. It only has to
prove that the defendant corruptly tried to do so.
One element that the government must prove
beyond a reasonable doubt for Count Five is that
the defendant had the unlawful intent to obstruct
or impede the due administration of the Internal
Revenue laws. Evidence that in good faith defendant followed the advice of his tax preparer is
inconsistent with such an unlawful intent.

App.47a
Unlawful intent has not been proved if the defendant, before acting, made full disclosure of all the
material facts to a tax preparer, received the tax
preparer’s advice as to the specific course of
conduct that was followed, and reasonably relied
on that advice in good faith.
The punishment provided by law for this crime
is for the Court to decide. You may not consider
punishment in deciding whether the government
has proved its case against . . .
[...]

